IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

DUSTIN MELVIN DAVISON, )
)

Petitioner, )

)

THE STATE OF OKLAHOMA, }
)
)

Respondent.

AFFIDAVIT OF MAILING
COUNTY OF OKLAHOMA, STATE OF OKLAHOMA ) SS.

J, Andrea Digilio Miller, being first duly sworn, depose and say that ] am a
member of the bar of this Court, that 1 am the attorney for Petitioner Dustin M.
Davison, and that ! caused to be mailed an original of the Petition For Writ Of
Certiorari Te The Oklahoma Court Of Criminal Appeals to the Office of the Clerk,
Supreme Court of the United States, on the 21% day of June, 2021, by depositing
same in the United States Mails, postage prepaid.

1 further depose and say that I caused to be mailed a true and correct copy
of the foregoing Petition For Writ Of Certiorari To the Oklahoma Court Of Criminal
Appeals to Jennifer Miller, Chief of Criminal Division, Office of the Attorney
General, on the 21% day of June, 2021.

Further Affiant sayeth not.

(DREA DIGILIO MILLER

Subscribed and sworn to before me this 215! day of June, 2021.

MY COMMISSION EXPIRES: Cd
é (ca NOTARY LEC

# 14010096 4

 
 
  
  

@
x
2g0F. 12/09/22}
"PU Ge
“hy QF ORS
“rerum
